      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                        Washington, D.C. 20201




January 31, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of Medicare Claims for Home Blood-Glucose Test Strips and Lancets—
               Durable Medical Equipment Medicare Administrative Contractor for
               Jurisdiction D (A-09-08-00046)


Attached, for your information, is an advance copy of our final report on Medicare claims for
home blood-glucose test strips and lancets for the durable medical equipment Medicare
administrative contractor for Jurisdiction D. We will issue this report to Noridian Administrative
Services, LLC, within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov
or Lori A. Ahlstrand, Regional Inspector General for Audit Services, Region IX, at
(415) 437-8360 or through email at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number
A-09-08-00046.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103



February 4, 2011

Report Number: A-09-08-00046

Ms. Emy Stenerson
Vice President of DME Operations
Noridian Administrative Services, LLC
900 42nd Street South
Fargo, ND 58103

Dear Ms. Stenerson:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Claims for Home Blood-Glucose Test
Strips and Lancets—Durable Medical Equipment Medicare Administrative Contractor for
Jurisdiction D. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Jessica Kim, Audit Manager, at (323) 261-7218, extension 702, or through email at
Yun.Kim@oig.hhs.gov. Please refer to report number A-09-08-00046 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Emy Stenerson


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL



REVIEW OF MEDICARE CLAIMS FOR
    HOME BLOOD-GLUCOSE
   TEST STRIPS AND LANCETS

 DURABLE MEDICAL EQUIPMENT
  MEDICARE ADMINISTRATIVE
      CONTRACTOR FOR
       JURISDICTION D



                      Daniel R. Levinson
                       Inspector General

                        February 2011
                        A-09-08-00046
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Social Security Act, Medicare
Part B covers home blood-glucose test strip and lancet supplies (test strips and lancets) that
physicians prescribe for diabetics. The Centers for Medicare & Medicaid Services (CMS)
contracts with four durable medical equipment Medicare administrative contractors (DME
MAC) to process and pay Medicare Part B claims for test strips and/or lancets. The amount
allowed for payment is equal to the lesser of the Medicare fee schedule amount or the amount
charged by a DME supplier. Medicare pays the beneficiary or the supplier the amount allowed
for payment, less the beneficiary share (i.e., deductibles and coinsurance).

The quantity of test strips and lancets that Medicare covers depends on the beneficiary’s usual
medical needs. Medicare utilization guidelines allow up to 100 test strips and 100 lancets every
month for insulin-treated diabetics and every 3 months for non-insulin-treated diabetics. To be
reimbursed for a claim for any quantity of test strips and/or lancets, the DME supplier is required
to maintain (1) a physician order containing the items to be dispensed, the specific frequency of
testing, and the physician’s signature with the date and (2) proof of delivery. The supplier may
refill an order only when the beneficiary has nearly exhausted the previous supply and
specifically requests the supplies to be dispensed.

Additional requirements apply for reimbursement of a claim for a quantity of test strips and/or
lancets that exceeds the utilization guidelines (high utilization claim). Specifically, there must be
documentation in the beneficiary’s medical records supporting the specific reason for the
additional supplies and documentation in the physician’s or supplier’s records supporting the
actual frequency of testing. Further, the physician must have seen the patient and evaluated the
patient’s diabetic control within 6 months before ordering the quantity of supplies in excess of
the guidelines.

Noridian Administrative Services, LLC (Noridian), the DME MAC for Jurisdiction D, allowed
for payment $219 million in Medicare Part B claims for test strips and/or lancets for calendar
year (CY) 2007. We focused our review on high utilization claims. To identify these claims, we
analyzed the information submitted by DME suppliers on the claim forms. We did not verify the
accuracy of the claim information. We estimated that Noridian allowed for payment $76 million
for the claims that we identified as high utilization claims.

OBJECTIVE

Our objective was to determine whether high utilization claims for test strips and/or lancets that
Noridian allowed for payment were supported in accordance with Medicare documentation
requirements.




                                                  i
SUMMARY OF FINDINGS

Of the 100 sampled claims for test strips and/or lancets, 29 claims were supported in accordance
with Medicare documentation requirements. However, the remaining 71 claims were not
supported because each claim had one or more deficiencies:

   •   The quantity of supplies that exceeded utilization guidelines was not supported with
       documentation indicating the specific reason for the additional supplies, the actual
       frequency of testing, or the treating physician’s evaluation of the patient’s diabetic
       control within 6 months before ordering the supplies (61 claims).

   •   Physician orders were missing or incomplete (20 claims).

   •   There was no documentation supporting that refill requirements had been met
       (12 claims).

   •   Proof-of-delivery records were missing (seven claims).

For CY 2007, based on our sample results, we estimated that Noridian inappropriately allowed
for payment approximately $40.5 million in claims for test strips and/or lancets that we identified
as high utilization claims. Of this amount, we estimated that Noridian inappropriately paid
approximately $30.9 million to DME suppliers.

Noridian made improper payments to DME suppliers because Noridian did not have controls to
ensure that claims for test strips and/or lancets complied with certain Medicare documentation
requirements. Specifically, Noridian did not have system edits to identify, and review when
necessary, high utilization claims. In addition, Noridian did not have system edits to identify
claims with overlapping service dates for the same beneficiary. This billing pattern caused
Noridian to allow payment for claims when beneficiaries had not nearly exhausted previously
dispensed test strips and/or lancets.

Noridian could have saved Medicare an estimated $30.9 million for CY 2007 if it had had
controls to ensure that claims for test strips and/or lancets complied with certain Medicare
documentation requirements.

RECOMMENDATIONS

To help achieve potential savings for the Medicare program in future years, we recommend that
Noridian:

   •   implement system edits to identify high utilization claims for test strips and/or lancets
       and work with CMS to develop cost-effective ways of determining which claims should
       be further reviewed for compliance with Medicare documentation requirements;

   •   implement system edits to identify claims for test strips and/or lancets that have
       overlapping service dates for the same beneficiary; and



                                                 ii
   •   enforce Medicare documentation requirements for claims for test strips and/or lancets by
       (1) identifying DME suppliers with a high volume of high utilization claims,
       (2) performing prepayment reviews of those suppliers, and (3) referring them to the
       Office of Inspector General or CMS for further review or investigation when necessary.

AUDITEE COMMENTS

In its written comments on our draft report, Noridian concurred with our recommendations and
provided information on actions that it had taken or planned to take to address the
recommendations. Noridian’s comments are included in their entirety as Appendix E.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Program ................................................................................................1
              Durable Medical Equipment ................................................................................1
              National and Local Coverage Determinations .....................................................1
              Home Blood-Glucose Test Strip and Lancet Supplies ........................................2
              Noridian Administrative Services, LLC ..............................................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3
               Objective ..............................................................................................................3
               Scope ....................................................................................................................3
               Methodology ........................................................................................................4

FINDINGS AND RECOMMENDATIONS ............................................................................5

          UNSUPPORTED CLAIMS FOR TEST STRIPS AND/OR LANCETS ........................5
               Lack of Documentation for Quantities in Excess of Utilization Guidelines .......5
               Missing or Incomplete Physician Orders ............................................................7
               Lack of Documentation To Support Refills of Supplies ......................................8
               Missing Proof-of-Delivery Records .....................................................................8

          EFFECT OF UNALLOWABLE CLAIMS .....................................................................9

          LACK OF CONTROLS ..................................................................................................9

          RECOMMENDATIONS .................................................................................................9

          AUDITEE COMMENTS...............................................................................................10

OTHER MATTERS ................................................................................................................10

          INCORRECT MODIFIER.............................................................................................10

          INCORRECT UNIQUE IDENTIFICATION NUMBER .............................................10

APPENDIXES

          A: FRAME SAMPLE DESIGN AND METHODOLOGY

          B: FRAME SAMPLE RESULTS AND ESTIMATES

          C: ERROR SAMPLE DESIGN AND METHODOLOGY


                                                                    iv
D: ERROR SAMPLE RESULTS AND ESTIMATES

E: AUDITEE COMMENTS




                           v
                                              INTRODUCTION

BACKGROUND

Medicare Program

The Medicare program, established by Title XVIII of the Social Security Act (the Act) in 1965,
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Durable Medical Equipment

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Act, Medicare Part B covers
durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS). DMEPOS includes
items such as wheelchairs, hospital beds, oxygen tents, and medical supplies. Section
1862(a)(1)(A) of the Act requires that, to be paid by Medicare, a service or an item be reasonable
and necessary for the diagnosis or treatment of illness or injury or to improve the functioning of
a malformed body member.

As a result of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
CMS contracted with four durable medical equipment Medicare administrative contractors
(DME MAC) to process and pay Medicare Part B claims for DMEPOS. Pursuant to the
Statement of Work, the DME MACs’ responsibilities included, but were not limited to,
(1) receiving Medicare Part B claims from DME suppliers and beneficiaries within their
jurisdictions, (2) performing edits 1 on these claims to determine whether they were complete and
reimbursable, (3) calculating Medicare payment amounts and remitting payments to the
appropriate parties, and (4) educating DME suppliers on Medicare requirements and billing
procedures.

The Statement of Work was modified to require the DME MACs to perform medical reviews as
of March 1, 2008. Medical reviews include the collection of information and review of medical
records to ensure that Medicare pays only for services that meet all Medicare coverage, coding,
and medical necessity requirements. The amount allowed for payment is equal to the lesser of
the Medicare fee schedule amount or the amount charged by a DME supplier. Medicare pays the
beneficiary or the supplier the amount allowed for payment, less the beneficiary share
(i.e., deductibles and coinsurance).

National and Local Coverage Determinations

National Coverage Determinations (NCD) describe the circumstances for Medicare coverage
nationwide for specific medical service procedures or devices, including DMEPOS, and


1
 An edit is programming within the standard claims processing system that selects certain claims; evaluates or
compares information on the selected claims or other accessible sources; and, depending on the evaluation, takes
action on the claims, such as paying them in full, paying them in part, or suspending them for manual review.


                                                         1
generally outline the conditions under which a service or device is considered covered. MACs
are required to follow NCDs.

A Local Coverage Determination (LCD) is a decision by a Medicare contractor, such as a MAC
or program safeguard contractor, whether to cover a particular item or service on a
contractorwide basis pursuant to section 1862(a)(1)(A) of the Act. Medicare contractors may
establish or adopt LCDs when there is no NCD or when they need to further define an NCD.
LCDs must be consistent with all statutes; rulings; regulations; and national coverage, payment,
and coding policies.

Home Blood-Glucose Test Strip and Lancet Supplies

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Act, Medicare Part B covers
home blood-glucose test strip and lancet supplies (test strips and lancets) that physicians
prescribe for diabetics, whether they are insulin-treated or non-insulin-treated. The patient, using
a disposable sterile lancet, draws a drop of blood, places it on a test strip, and inserts the strip
into a home blood-glucose monitor to obtain a reading of the blood-sugar level. DME suppliers
provide test strips and lancets to beneficiaries.

The NCD for home blood-glucose monitors specifies coverage of test strips and lancets for
patients who meet certain conditions and use home blood-glucose monitors to better control their
glucose levels by frequently checking those levels and appropriately contacting their attending
physicians for advice and treatment. 2 However, the NCD does not specify utilization guidelines
and documentation requirements for test strips and lancets.

To establish utilization guidelines and documentation requirements for test strips and lancets,
DME MACs either established or adopted LCDs, which state that the quantity of test strips and
lancets that Medicare covers depends on the beneficiary’s usual medical needs. The LCD for
each DME MAC further states that Medicare covers up to 100 test strips and 100 lancets every
month for insulin-treated diabetics and every 3 months for non-insulin-treated diabetics. 3

To be reimbursed for a claim for any quantity of test strips and/or lancets, the DME supplier is
required to maintain (1) a physician order containing the items to be dispensed, the specific
frequency of testing, and the physician’s signature with the date and (2) proof of delivery. The
supplier may refill an order only when the beneficiary has nearly exhausted the previous supply
and specifically requests the supplies to be dispensed.

Additional requirements apply for reimbursement of a claim for a quantity of test strips and/or
lancets that exceeds the utilization guidelines (high utilization claim). Specifically, there must be
documentation in the beneficiary’s medical records supporting the specific reason for the
additional supplies and documentation in the physician’s or supplier’s records supporting the
actual frequency of testing. Further, the physician must have seen the patient and evaluated the

2
 Medicare National Coverage Determinations Manual, Pub. No. 100-03, chapter 1, section 40.2, effective
June 19, 2006.
3
    Medicare considers 50 test strips as 1 unit and 100 lancets as 1 unit.


                                                              2
patient’s diabetic control within 6 months before ordering the quantity of supplies in excess of
the guidelines.

Noridian Administrative Services, LLC

On January 6, 2006, CMS awarded the DME MAC contract for Jurisdiction D to Noridian
Administrative Services, LLC (Noridian), a wholly owned subsidiary of Noridian Mutual
Insurance Company. As of September 30, 2006, Noridian assumed full responsibility for
administering the DME MAC work and began processing DMEPOS claims for Jurisdiction D.
Noridian’s main office is located in Fargo, North Dakota, through which it serves Medicare
beneficiaries residing in Alaska, American Samoa, Arizona, California, Guam, Hawaii, Idaho,
Iowa, Kansas, Missouri, Montana, Nebraska, Nevada, North Dakota, the Northern Mariana
Islands, Oregon, South Dakota, Utah, Washington, and Wyoming.

Noridian allowed for payment $219 million in Medicare Part B claims for test strips and/or
lancets for calendar year (CY) 2007.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether high utilization claims for test strips and/or lancets that
Noridian allowed for payment were supported in accordance with Medicare documentation
requirements.

Scope

We focused our review on high utilization claims for test strips and/or lancets for CY 2007. To
identify these claims, we analyzed the information submitted by DME suppliers on the Medicare
claim forms. We did not verify the accuracy of the claim information. 4 We estimated that
Noridian allowed for payment $76 million for the claims that we identified as high utilization
claims. (See Appendixes A and B.)

We did not review the overall internal control structure of Noridian. Rather, we limited our
review of internal controls to those that were significant to the objective of our audit.

We performed our review from July 2008 to August 2010 and conducted fieldwork at Noridian’s
office in Fargo, North Dakota.




4
 During our audit, we determined that some claims we had identified as high utilization claims were in fact within
the Medicare utilization guidelines based on our review of the beneficiaries’ medical records and additional analysis
of the claim information.



                                                          3
Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   reviewed the LCD adopted by Noridian;

    •   reviewed the Statements of Work for Noridian prepared by CMS for the
        administration of DMEPOS;

    •   reviewed Noridian’s policies and procedures for processing Medicare claims for
        test strips and/or lancets;

    •   interviewed Noridian officials to obtain an understanding of its Medicare claim
        processing procedures for test strips and/or lancets;

    •   obtained from the CMS National Claims History (NCH) files Noridian’s
        Medicare Part B claims for test strips and/or lancets with service dates ending in
        CY 2007 and removed any service line in which the amount allowed for payment
        was less than the lowest nationwide Medicare Part B fee schedule amount in
        CY 2007 ($32.74 for test strips and $10.83 for lancets);

    •   created a sampling frame from the NCH data and randomly selected a sample of
        500 Medicare beneficiaries to estimate the number of high utilization claims that
        Noridian allowed for payment (Appendixes A and B);

    •   randomly selected a sample of 100 high utilization claims 5 to estimate the
        amounts that Noridian allowed for payment and paid to suppliers for claims that
        were not supported in accordance with Medicare documentation requirements
        (Appendixes C and D);

    •   obtained medical records and other documentation from suppliers and physicians
        for the 100 sampled claims;

    •   reviewed medical records and other documentation to determine whether each of the 100
        sampled claims was supported in accordance with Medicare documentation requirements;
        and

    •   shared the results of our review with Noridian.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain

5
 Of the 100 claims, 21 claims were within the Medicare utilization guidelines based on our review of the
beneficiaries’ medical records and additional analysis of the claim information.


                                                         4
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

Of the 100 sampled claims for test strips and/or lancets, 29 claims were supported in accordance
with Medicare documentation requirements. However, the remaining 71 claims were not
supported because each claim had one or more deficiencies. For CY 2007, based on our sample
results, we estimated that Noridian inappropriately allowed for payment approximately
$40.5 million in claims for test strips and/or lancets that we identified as high utilization claims.
Of this amount, we estimated that Noridian inappropriately paid approximately $30.9 million to
DME suppliers.

The table below summarizes the deficiencies noted and the number of claims that contained each
type of deficiency.

                                Summary of Deficiencies in Sampled Claims

                                                                                         No. of Claims With
                            Type of Deficiency                                              Deficiencies 6
    Lack of Documentation for Quantities in Excess of Utilization                                61
    Guidelines
    Missing or Incomplete Physician Orders                                                      20
    Lack of Documentation To Support Refills of Supplies                                        12
    Missing Proof-of-Delivery Records                                                            7

Noridian made improper payments to DME suppliers because Noridian did not have controls to
ensure that claims for test strips and/or lancets complied with certain Medicare documentation
requirements. Specifically, Noridian did not have system edits to identify, and review when
necessary, high utilization claims. In addition, Noridian did not have system edits to identify
claims with overlapping service dates for the same beneficiary. This billing pattern caused
Noridian to allow payment for claims when beneficiaries had not nearly exhausted previously
dispensed test strips and/or lancets.

UNSUPPORTED CLAIMS FOR TEST STRIPS AND/OR LANCETS

Lack of Documentation for Quantities in Excess of Utilization Guidelines

For a quantity of test strips and lancets in excess of the utilization guidelines, LCD L196 requires
that the treating physician document in the medical records the specific reason for the additional
supplies.


6
    The total exceeds 71 because 43 of the 71 claims contained more than 1 deficiency.


                                                           5
LCD L196 also requires that when a DME supplier refills a physician order for a quantity of test
strips and lancets in excess of the utilization guidelines, “[T]here must be documentation in the
physician’s records (e.g., a specific narrative statement that adequately documents the frequency
at which the patient is actually testing or a copy of the beneficiary’s log) or in the supplier’s
records (e.g., a copy of the beneficiary’s log) that the patient is actually testing at a frequency
that corroborates the quantity of supplies that have been dispensed.”

Finally, LCD L196 states that the treating physician must have evaluated the patient’s diabetes
control within 6 months before ordering the quantity of test strips and lancets in excess of the
guidelines.

For 61 of the 100 sampled claims, the beneficiary’s medical records did not have the required
documentation to support a quantity of supplies in excess of the guidelines.

No Documentation of Specific Reason for Additional Supplies

For 55 of the 61 claims, the beneficiary’s medical records did not indicate a specific reason for
the additional supplies. For example, for one claim, a supplier provided a copy of a physician
order indicating a testing frequency of eight times a day for a non-insulin-treated patient. The
utilization guidelines for a non-insulin-treated patient specify a quantity of supplies indicating a
testing frequency of approximately once a day. However, the patient’s medical records did not
indicate a specific reason for the additional supplies.

No Documentation of Actual Testing Frequency To Support Refills

For 39 of the 61 claims, neither the physician’s nor the supplier’s records contained
documentation supporting that the beneficiary was actually testing at a “frequency that
corroborates the quantity of supplies that have been dispensed.” For example, for one claim, a
DME supplier dispensed a refill consisting of six units of test strips for a non-insulin-treated
patient, which would be the quantity for a testing frequency of approximately four times a day.
This testing frequency corresponded to the physician order, which was signed by the physician.
However, neither the physician nor the supplier maintained records documenting that the patient
was actually testing four times a day, such as a specific narrative statement from the physician or
a copy of the beneficiary’s log.

No Documentation of Treating Physician’s Evaluation of Patient’s Diabetic Control

For 8 of the 61 claims, the beneficiary’s medical records did not indicate that the physician
evaluated the patient’s diabetic control within 6 months before ordering the quantity of supplies
in excess of the utilization guidelines. For example, a DME supplier submitted a claim for test
strips and lancets provided to an insulin-treated patient based on a physician order signed June 4,
2007. The physician order indicated a testing frequency of four times a day, which was in excess
of the guidelines. When we contacted a community clinic where the physician practiced, the
clinic provided medical records showing that the physician saw the patient on March 22, 2006,
which was almost 14 months before the date of the physician order.




                                                  6
Missing or Incomplete Physician Orders

Section 1833(e) of the Act requires that providers furnish DME MACs with necessary
information to receive payment for services provided to Medicare beneficiaries.

The Medicare Program Integrity Manual (the Manual), Pub. No. 100-08, chapter 5,
section 5.2.1, requires that the DME supplier obtain an order from the treating physician before
dispensing supplies to a beneficiary. The Manual, chapter 5, sections 5.2.2 and 5.2.3, provide
that, when a DME supplier dispenses items based on a verbal order, the supplier must have a
written order in its records before submitting a claim to the DME MAC.

LCD L196 states: “An order for each item billed must be signed and dated by the treating
physician, kept on file by the supplier, and made available upon request.” Further, the LCD
requires that the order for test strips and lancets include (1) the specific frequency of testing,
(2) the treating physician’s signature, and (3) the date of the treating physician’s signature.

For 20 of the 100 sampled claims, suppliers submitted claims when physician orders were
missing or incomplete.

Missing Physician Orders

For 10 of the 20 claims, the DME suppliers did not have written physician orders. For 9 of the
10 claims, the suppliers had documentation of verbal orders from the treating physicians but did
not have written orders or references to them. For the remaining claim, the supplier did not
provide a copy of the written order. When we contacted the supplier to obtain a copy of the
order, an official stated that the supplier could not locate the order.

Incomplete Physician Orders

For 10 of the 20 claims, the DME suppliers had physician orders without required elements,
including the treating physician’s signature, the specific frequency of testing, and the date of the
physician signature:

   •   For six claims, copies of the physician orders did not have the physicians’ signatures.
       For example, for one claim, a supplier provided a copy of the physician order signed by a
       licensed practical nurse.

   •   For five claims, copies of the physician orders did not indicate the specific frequency of
       testing. Instead, they indicated either “as directed” or the quantity of supplies (e.g., “100
       test strips”).

   •   For one claim, the copy of the physician order did not have the date of the physician’s
       signature. The physician’s records did not indicate that he had ordered the supplies.




                                                   7
Lack of Documentation To Support Refills of Supplies

The Manual, chapter 4, section 4.26.1, states that, when a DME supplier refills an original order,
the supplier must contact the beneficiary before dispensing the refill. Further, the Manual states:
“For subsequent deliveries of refills, the supplier should deliver the DMEPOS product no sooner
than approximately 5 days prior to the end of usage for the current product.”

LCD L196 states that the DME supplier may not dispense test strips and lancets until the
beneficiary has nearly exhausted the previously dispensed supplies. In addition, a beneficiary or
the beneficiary’s caregiver must specifically request the refill of test strips and lancets before the
supplier dispenses supplies to the beneficiary.

For 12 of the 100 sampled claims, suppliers did not have documentation to support that refill
requirements had been met.

Previously Dispensed Supplies Not Nearly Exhausted

For 11 of the 12 claims, DME suppliers dispensed test strips and/or lancets when the
beneficiaries had not nearly exhausted the previously dispensed supplies. Of the 11 claims,
6 claims had multiple suppliers that had dispensed test strips and/or lancets for the same
beneficiary with overlapping service dates. In one instance, two suppliers had billed Medicare
for claims with overlapping service dates for the same beneficiary. The beneficiary’s physician
had ordered a testing frequency of three times a day for an insulin-treated patient. The supplier
for the selected sample claim dispensed six units of test strips and submitted a claim to Noridian
for service dates covering the period September 17 through December 15, 2007. In addition,
another supplier dispensed four units of test strips and submitted a claim to Noridian for the same
beneficiary covering the period July 31 through October 29, 2007. Noridian allowed payment
for both of these claims.

Refills Not Specifically Requested

For 1 of the 12 claims, there was no documentation supporting that the beneficiary or the
beneficiary’s caregiver had specifically requested the refill before the supplies were dispensed.
When we attempted to contact the DME supplier to obtain documentation, we found that the
supplier had filed for bankruptcy on June 12, 2008.

Missing Proof-of-Delivery Records

Pursuant to 42 CFR § 424.57(c)(12), DME suppliers are required to maintain proof of delivery of
DME supplies provided to Medicare beneficiaries. The Manual, chapter 4, section 4.26, requires
that DME suppliers maintain proof-of-delivery documentation in their files for 7 years.

For 7 of the 100 sampled claims, suppliers did not maintain proof of delivery. When we
requested delivery records, the suppliers did not provide proof of delivery. For example, a
supplier submitted a claim for eight units of test strips and four units of lancets for the service




                                                  8
date beginning May 15, 2007. When we requested proof of delivery, the supplier provided only
a delivery carrier’s tracking number and stated that additional documentation was not available.

EFFECT OF UNALLOWABLE CLAIMS

For 71 of the items in our sample, claims for test strips and/or lancets that we identified as high
utilization claims were not supported in accordance with Medicare documentation requirements.
As a result, Noridian allowed $6,320 in Medicare Part B payments for unallowable claims. Of
this amount, Noridian inappropriately paid $4,821 to suppliers.

For CY 2007, based on our sample results, we estimated that Noridian inappropriately allowed
for payment $40,506,383 in claims for test strips and/or lancets that we identified as high
utilization claims. Of this amount, we estimated that Noridian inappropriately paid $30,898,935
to suppliers.

LACK OF CONTROLS

Noridian made improper payments to DME suppliers because Noridian did not have controls to
ensure that claims for test strips and/or lancets complied with certain Medicare documentation
requirements. Specifically, Noridian did not have system edits to identify, and review when
necessary, high utilization claims. In addition, Noridian did not have system edits to identify
suppliers’ claims with overlapping service dates for the same beneficiary. This billing pattern
caused Noridian to allow payment for claims when beneficiaries had not nearly exhausted
previously dispensed test strips and/or lancets.

Noridian could have saved Medicare an estimated $30,898,935 for CY 2007 if it had had
controls to ensure that claims for test strips and/or lancets complied with certain Medicare
documentation requirements.

RECOMMENDATIONS

To help achieve potential savings for the Medicare program in future years, we recommend that
Noridian:

   •   implement system edits to identify high utilization claims for test strips and/or lancets
       and work with CMS to develop cost-effective ways of determining which claims should
       be further reviewed for compliance with Medicare documentation requirements;

   •   implement system edits to identify claims for test strips and/or lancets that have
       overlapping service dates for the same beneficiary; and

   •   enforce Medicare documentation requirements for claims for test strips and/or lancets by
       (1) identifying DME suppliers with a high volume of high utilization claims,
       (2) performing prepayment reviews of those suppliers, and (3) referring them to the
       Office of Inspector General or CMS for further review or investigation when necessary.




                                                 9
AUDITEE COMMENTS

In its written comments on our draft report, Noridian concurred with our recommendations and
provided information on actions that it had taken or planned to take to address the
recommendations. Regarding the first recommendation, Noridian stated that it had implemented
system edits in April 2008 to suspend claims with the highest utilization of test strips and/or
lancets. Noridian also stated that it manually reviews these claims for compliance with Medicare
documentation requirements. Regarding the second recommendation, Noridian stated that it had
significantly reduced the volume of claims that had overlapping service dates for the same
beneficiary by implementing system edits that monitor the utilization of test strips and lancets.
Regarding the third recommendation, Noridian stated that it had implemented system edits to
identify high utilization claims for prepayment review. In addition, Noridian stated that the
DME medical directors had worked with CMS to revise the LCD, which, when finalized, will
enable the DME MACs to curb the overutilization of test strips and lancets.

Noridian’s comments are included in their entirety as Appendix E.

                                     OTHER MATTERS

We identified issues with DME suppliers’ use of modifiers and unique physician identification
numbers for test strip and/or lancet claims.

INCORRECT MODIFIER

LCD L196 requires that a Medicare claim for test strips and/or lancets include the KX modifier
for insulin-treated patients and the KS modifier for non-insulin-treated patients.

For 24 of the 100 sampled claims, DME suppliers submitted claims with incorrect modifiers.
For example, a claim from one supplier for test strips included the KX modifier rather than the
KS modifier when the physician order did not indicate that the beneficiary was being treated
with insulin. The documentation in the treating physician’s medical records also supported that
the beneficiary was not being treated with insulin.

INCORRECT UNIQUE IDENTIFICATION NUMBER

Section 1833(q)(1) of the Act requires that a Medicare claim include the unique identification
number for the referring physician.

For 10 of the 100 sampled claims, DME suppliers submitted claims with incorrect unique
identification numbers for referring physicians. For example, a claim from one supplier for
lancets included an incorrect unique identification number for the referring (i.e., ordering)
physician. The supplier received a verbal order from the referring physician’s office before
dispensing the supplies. However, the supplier incorrectly recorded the unique identification
number on the claim, which appeared to be a typographical error.




                                               10
APPENDIXES
                                                                                        Page 1 of 2


           APPENDIX A: FRAME SAMPLE DESIGN AND METHODOLOGY

OBJECTIVE

To accomplish our audit objective, we reviewed a sample of claims (error sample) to determine
whether Medicare documentation requirements had been met and to estimate the effect of
noncompliance. The error sample included Medicare Part B claims for home blood-glucose test
strip and/or lancet supplies (test strips and/or lancets) that Noridian Administrative Services,
LLC (Noridian), allowed for payment with quantities that exceeded Medicare utilization
guidelines based on our analysis of claims (high utilization claims). To estimate the effect of
noncompliance, it was necessary to determine the total number of high utilization claims that
Noridian allowed for payment. However, because high utilization claims were not easily
identifiable, we could not determine the total number of high utilization claims without
significant time and effort. Therefore, the objective of reviewing this sample was to estimate the
number of high utilization claims that Noridian allowed for payment (frame sample).

POPULATION

The population consisted of high utilization claims. The population was limited to the Part B
claims included in the Centers for Medicare & Medicaid Services (CMS) National Claims
History file for calendar year (CY) 2007, updated as of December 2007.

SAMPLING FRAME

We extracted Medicare Part B claims for test strips and/or lancets (Healthcare Common
Procedure Coding System codes A4253 and A4259, respectively) with service dates ending in
CY 2007. We removed from the claims any service line in which the amount allowed for
payment was less than the lowest nationwide CY 2007 Medicare fee schedule amount ($32.74
for test strips and $10.83 for lancets). The result was a data file containing 2,086,642 claims for
test strips and/or lancets for 634,578 beneficiaries. This data file included claims with all
quantities of test strips and/or lancets.

To identify high utilization claims for test strips and/or lancets, we determined that an in-depth
analysis of each of the 2,086,642 claims in the data file was needed. However, because it was
not practical to analyze all of these claims, we used a random sample to estimate the total
number of and the amount allowed for payment for high utilization claims. The sampling frame
contained the 634,578 beneficiaries for whom the 2,086,642 test strip and/or lancet claims had
been submitted to Noridian.

To identify high utilization claims for the frame sample, we analyzed the information submitted
by durable medical equipment (DME) suppliers on the claim forms. We did not verify the
accuracy of the information. However, during our audit, we determined that some claims we had
identified as high utilization claims were in fact within the Medicare utilization guidelines based
on our review of the beneficiaries’ medical records and additional analysis of the claim
information. Because it was not practical to obtain and review the medical records for all
beneficiaries with test strip and/or lancet claims, we considered a claim to be a high utilization
                                                                                        Page 2 of 2


claim based solely on the claim information submitted by DME suppliers. Further, we did not
perform additional analysis of all claims. As a result, the sampling frame of high utilization
claims contained claims in which the quantity of test strips and/or lancets was within the
Medicare utilization guidelines.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE UNIT

The sample unit was a beneficiary with one or more claims for test strips and/or lancets that
Noridian allowed for payment.

SAMPLE SIZE

The sample size was 500 beneficiaries.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services (OAS), statistical software to
generate a set of random numbers.

METHOD OF SELECTING SAMPLE UNITS

To select the sample units, we consecutively numbered the sample units in the frame from 1 to
634,578. After generating 500 random numbers, we selected the corresponding frame items. No
frame sample unit was replaced.

CHARACTERISTICS TO BE MEASURED

For each sample unit, we obtained all the beneficiary’s claims for test strips and/or lancets and
analyzed the claim information submitted by DME suppliers to determine the number of high
utilization claims.

ESTIMATION METHODOLOGY

We used the OAS statistical software to estimate the total number of high utilization claims that
Noridian allowed for payment, as well as the amount allowed for payment.
                   APPENDIX B: FRAME SAMPLE RESULTS AND ESTIMATES


                         Sample Results for Estimate of Total Number of Claims

   No. of
Beneficiaries
 With Test      No. of Claims
Strip/Lancet         for                                                    No. of Sampled
 Claims in      Beneficiaries      No. of         No. of Claims for        Beneficiaries That           No. of High
 Sampling       in Sampling     Beneficiaries         Sampled                   Had High          Utilization Claims for
   Frame           Frame         in Sample         Beneficiaries           Utilization Claims     Sampled Beneficiaries

 634,578        2,086,642           500                   1,651                  180                      504


                      Sample Results for Estimate of Amount Allowed for Payment

     No. of
  Beneficiaries
   With Test         Amount Allowed                           Amount          No. of Sampled        Amount Allowed
  Strip/Lancet       for Payment by          No. of          Allowed for     Beneficiaries That    for High Utilization
   Claims in           Noridian in        Beneficiaries      Payment in           Had High         Claims for Sampled
Sampling Frame       Sampling Frame        in Sample           Sample        Utilization Claims        Beneficiaries

    634,578          $207,547,411               500           $162,170              180                 $60,173


                                   Estimates for High Utilization Claims
                          (Limits Calculated for a 90-Percent Confidence Interval)


                                                                       Estimated
                                                   Estimated            Amount
                                                  Total No. of         Allowed for
                                                    Claims              Payment
                            Point estimate            639,655            $76,368,556
                            Lower limit               544,580             63,745,257
                            Upper limit               734,729             88,991,855
                                                                                                       Page 1 of 2


             APPENDIX C: ERROR SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of Medicare Part B high utilization claims for test strips and/or lancets
that Noridian allowed for payment. The population was limited to the Part B claims included in
CMS’s National Claims History file for CY 2007, updated as of December 2007.

SAMPLING FRAME

The number of sample units in the sampling frame was unknown and was estimated by the
sample described in Appendixes A and B.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE UNIT

The sample unit was a high utilization claim for test strips and/or lancets.

SAMPLE SIZE

The sample size was 100 high utilization claims for test strips and/or lancets.

SOURCE OF RANDOM NUMBERS

We used the OAS statistical software to generate the random numbers.

METHOD OF SELECTING SAMPLE UNITS

To select the sample units, we consecutively numbered the test strip and/or lancet claims in the
data file from 1 to 2,086,642. Using the random numbers in the order in which they were
generated, we matched each random number to the corresponding test strip and/or lancet claim.
We analyzed the claim corresponding to the first randomly generated number to determine
whether the claim was within the Medicare utilization guidelines. If the claim exceeded the
utilization guidelines, we included it in the sample as a high utilization claim. If the claim did
not exceed the guidelines, we replaced it with the claim corresponding to the next randomly
generated number and analyzed the newly selected claim. We continued this process until we
had identified 100 high utilization claims. 1




1
 Of the 100 claims, 21 claims were within the utilization guidelines based on our review of the beneficiaries’
medical records and additional analysis of the claim information.
                                                                                     Page 2 of 2


ESTIMATION METHODOLOGY

Based on the results of this sample and the sample described in Appendixes A and B, we used
the OAS statistical software to estimate the (1) amount allowed for payment by Noridian for
claims that we identified as high utilization claims and were not supported in accordance with
Medicare documentation requirements and (2) amount that Noridian paid to DME suppliers for
claims that we identified as high utilization claims and were not supported in accordance with
Medicare documentation requirements.
               APPENDIX D: ERROR SAMPLE RESULTS AND ESTIMATES


                Sample Results for Amount That Noridian Allowed for Payment

                                          No. of                              Value of
                                       Claims With          Value of         Unallowable
                    Sample Size        Deficiencies         Sample            Amount
                         100                 71              $12,324             $6,320


               Sample Results for Amount That Noridian Paid to DME Suppliers

                                          No. of                              Value of
                                       Claims With          Value of         Unallowable
                    Sample Size        Deficiencies         Sample            Amount
                         100                67 1              $9,386             $4,821



                                Estimates of Unallowable Amounts
                      (Limits Calculated for a 90-Percent Confidence Interval)

                                                 Amount
                                                Noridian                 Amount
                                               Allowed for           Noridian Paid to
                                                Payment              DME Suppliers
                      Point estimate           $40,506,383             $30,898,935
                      Lower limit               30,684,250              23,102,391
                      Upper limit               50,328,516              38,695,480




1
 Of the 71 claims with deficiencies, payments for 67 claims were made to DME suppliers. The payment for one
claim was made to the Medicare beneficiary. For the remaining three claims, the payments were made to neither
suppliers nor the beneficiaries because the beneficiaries were required to pay deductibles.
                                                                                                         Page 1 of3


                           APPENDIX E: AUDITEE COMMENTS 





  ~
 NOR/D/AN" 	                                                                      Medicare
 900 42 00    StI~et   Sou t h 

 facqo, fro 58 103 





October 25, 2010


Lori A. Ahbtrulld
Regional Inspector General lOr Audit Services
Office of Audit Services, Region IX
90- 1 h Sireet Suite 3-6.50
S;Ul Francisco, CA 94103

Dear 1\.o\s. Ah btnmd,

RI~ :   Report Number ;\-09-08-00046

NAS has reviewed the September 2 1, 20 [0 draft report A-09-0!!-OOO46 ent itled R("l'icW of
Medicare Claillls[ol' Home Blood-Glucose Test Strips and Lancets - DllrableMedical
Eqllipmem Medicare Adminislrative Contraclor for Ju risdiction D. We agree there is a
widespread problem am ong DME suppliefll 011 exceeding the utilization ofhl ood glucose
supplies.

We CQIlCllT with the fo llowing recommendations as outlined in the repon. TIle OIO"s
recommendations are listed below, followed by NAS' response on th e corrective action taken or
planrl<:d.

        • 	 Implement system edits to identify high utilization claims for test strips and/or lancets
            and work with Cl\·IS to deve lop CQst eflective ways ofdetenllining which claims should
            be furthcr r.::vicwcd for compliance with Mcdicare documentation r.::quir.::mcnts

Con -ccth 'c Action tllkclI or planned : System edits, called AFNs, were implemented by NAS in
April 2008 to pend (suspend) claims that contain the highest utilization of test strips andior
lancets. ll1ese claims lITe manuall y reviewed on a pre-payment basis. If documentation is not on
file in our office to support the higher lnilization, it is requcsted. NAS will review the
documentation for compliance with Medicare documentation requirements. TIle services arc
denied if th e documenta tion does not meet docmllentation re(lui rements. Documentation
requirements include physician order, proof ofdclivcry, tcsting logs, 6 month evaluation by
physician, etc.




                                            ... CI1S Contr.. cte<l
",."n                                     Clu ,e~/I"te.r.ed.a.ry 	                                      '_D'
                                                                                                            Page 2 of3




As llli:llliom:J in Ihe dran OIG repurt, NAS did nol ~~Ullle Ihe medical re view (MR) activities
lor Jurisdiction D unt il March 2008. NAS posted G lucose ~'[onitors and Related Accessories and
Supplies 10 OUT website on r.,'larch 12, 2008, reminding suppliers of th;,: LCD and Policy Article
requirements. Between t-,·Iarch 2008 and October 20 10, we have published 12 additional articles
and provided 13 workshops specilicul ly on th e IOpic of blood glucose test strips andlor lrulcel
n:quin::ments. We id':lltifted diabetic suppli.:s as a high CERT t:IT()T and initiated prohe rtlviews
in May 2008 lor the top diabetic suppliers. Since thaI time, diabet ic su pplies continue to be a
foclIs of MR reviews. NAS conducted 46 probe reviews and 16 comple x targeted reviews on 36
suppliers billing for diabetic suppli es since assumin g the l"m activities. Additionall y, NAS
initiated a widespread service-specific re view for diabetic strips in 2010 whi ch is still in process.

    • 	 Implement system edits to identify claims tOr test strips and/or lancets that have 

        o\"erlapping service dates for the ~ ame beneficiary 


COI1"E"ctiw:' Actio n takl.'n or planlloo : Although there arc VMS systcm limitations to
eliminating thi! ovcrpaymL'llt of services for the ~am c beneficiary wi th overlllpping dates, NAS
has significmltly reduced the vo lume of claims reimbursed fOr overlapping d.1tes. This was
accomplishcd by implemcnting systcm cdits (AFNs) that monitor the utilization of tcst strips
an d/or lan cets. "I110se ~cn' i ecs that exceed our defined thrcsholds an: pcnded (s u spcnd~-d ) for
re\~ew. During this pre-pa yment review, we compare the dates of service on the current claim
against th e patient"s history of claims processed. If the dat es of sen'iee on the current claim
overlap with a claim that has alread y been processed, th e CUTTent claim is denied or reduced
accordingly.

Overpayments incurred by t he 10llr D~·IE ~-IACs due to overlapping dates were a topic of
discussion at thc Fall 2010 D.HE Coordinalion mccting. 'lh: Pricing Data Analysis Contractor
(PDAC) provided statistical datl! to demonstrate the impact of these claims are gening through to
pa)mcnl. A resolutiollto this systcm limitation was a recommcndation for reducing im proper
payments for diabetic supplies.

    • 	 Enfo rce Medicare documentation requi rements for claims for h:-st strips andlor laneets by
        (I) idemifying DME suppliers with a high volume of high ut ilization claims, (2)
        perfonning pre· payment review of those DME suppliers, and (3) refening them to the
        OIG or eMS for fu rth er re view or investigation wh.:n necessar y

CO I"I"ecti\'l' Al'finn taken or plmllll'(l : As of April, 200&, NAS has implemented system edits
(AFNs) tllat identify claims with a high utilization of lest strips and/or lan cel~. For these claims a
prc-pa}1llent review is conducted, If the documentation to support th e higher utili;\ation is not on
file in our olli ce, it is rL"{l uestcd. We revicw th e documentation for compliant'C with Mcdieare
documentat ion requirements and rationale from treating ph ys ician for the addit ional supplies.
Services thaI arc not substantiated througll propLT documentation arc denied.

A change to the LCD Ll96 is currenll y in process thaI wi ll, upon finalizat ion. greatly improve
th e 1)11.-1E MAC"s abilit ), to enforce well-defi ned limits for the utili zation of test strips andlor
lan~ts. Thc DME medica l directors (DMDs) ha,'':: worked diligently with CMS to finllup the




                                           ... CI1S Con tr.. c t e<l
",."n 	                                 Clu , e~/I"te.r . ed.a.ry                                          '_D' 

                                                                                                                 Page 3 of3




LC D and once th e revision i ~ impl emented, it wi ll .::nable tIn: Oll.'lE   ~'I AC~   to effectively and
ellicienlly curb Ihe over-Ulilizatioll ortilese servi ces.

NAS is pleased with the significant changes we have made to mitigate the improper pa)llleTlts on
lesl strips and/or lanCCL'i. W e w ill continu e to pu rs ue additi onal cos t cOccli".;! avenues 10 furth er
achieve savi ngs for the l\·ledica:re program.

Please co ntact me by pho ne at 70 1-282- ]]56 o r by emai l al Cm V.slL'Ilc!1ion(al noridian.co m w ilh
any qucstions regarding NAS' response.

Sincerely,

\ Em y Stenerson\

Emy S tenerson
NAS Vice Prcsidi:n l
Jurisd iction D Project Manager




                                            ... CI1S Con tr.. c t e<l
",."n                                     Clu , e~/I"te.r . ed.a.ry                                             '_D'
